App. 1
487 Mass. 1104
(This disposition is referenced
in the North Eastern Reporter.)
Supreme Judicial Court of Massachusetts.
EMERALD HOME CARE, INC.
v.
DEPARTMENT OF
UNEMPLOYMENT ASSISTANCE
April 15, 2021
Reported below: 99 Mass. App. Ct. 151 (2021).
Opinion
Appellate review denied.
Mme. Chief Justice Budd did not participate.

App. 2
NOTICE: All slip opinions and orders are subject to
formal revision and are superseded by the advance
sheets and bound volumes of the Official Reports. If
you find a typographical error or other formal error,
please notify the Reporter of Decisions, Supreme Judicial Court, John Adams Courthouse, 1 Pemberton
Square, Suite 2500, Boston, MA, 02108-1750; (617)
557-1030; SJCReporter@sjc.state.ma.us
20-P-188

Appeals Court

EMERALD HOME CARE, INC. vs. DEPARTMENT
OF UNEMPLOYMENT ASSISTANCE.
No. 20-P-188.
Middlesex. November 12, 2020. – February 2, 2021.
Present: Green, C.J., Desmond, & Lemire, JJ.
Massachusetts Medical Assistance Program. Due
Process of Law, Notice, Hearing. Constitutional
Law, Freedom of speech and press, Federal preemption. Federal Preemption.
Civil action commenced in the Superior Court
Department on June 8, 2018.
The case was heard by Michael D. Ricciuti, J., on
motions for judgment on the pleadings.
Arthur R. Cormier for the plaintiff.
Andrew J. Haile, Assistant Attorney General, for
the defendant.
DESMOND, J. In 2017, the Massachusetts
Legislature enacted a two-year program, known as the

App. 3
Employer Medical Assistance Contribution Supplement
(EMAC Supplement or program), whereby Massachusetts employers with six or more employees were
required to pay a contribution for their employees who
received publicly subsidized health insurance during
that period. See G. L. c. 149, § 189A.1 On April 11, 2018,
Emerald Home Care, Inc. (Emerald), was notified that
it was liable for a contribution for twenty-eight
employees under the EMAC Supplement.2 Emerald
filed an appeal of this liability determination with the
Department of Unemployment Assistance (DUA),
arguing that the EMAC Supplement was unconstitutional. The appeal was dismissed for “fail[ure] to cite
cognizable grounds for a hearing,” and Emerald sought
judicial review in the Superior Court. On cross motions
for judgment on the pleadings, a judge of the Superior
Court entered judgment for DUA. We affirm.
Background. The EMAC Supplement went into
effect on January 1, 2018, and was administered until
its end date on December 31, 2019. G. L. c. 149, § 189A.
Under the program, Massachusetts employers with six
or more employees were required to pay a quarterly
1

The statute was repealed effective December 31, 2019, by
St. 2017, c. 63, § 10.
2
Throughout its brief, Emerald refers to the quarterly contribution as a tax on employers. We, however, use the language
included in the EMAC Supplement statute and regulations and
refer to the amount assessed to employers as the liability
determination, and the payment made as a contribution. See G.
L. c. 149, § 189A; 430 Code Mass. Regs. §§ 21.00 (2018). In the
end, the language used to describe the payment makes no
difference to the analysis of this case.

App. 4
contribution for each of their employees who received
publicly subsidized health insurance for at least fiftysix days. See G. L. c. 149, § 189A; 430 Code Mass. Regs.
§ 21.03 (2018). DUA was tasked with promulgating
regulations to implement the EMAC Supplement, as
well as the collection of the contributions from
Massachusetts employers. G. L. c. 149, 189A.
To calculate the amount owed by each employer,
DUA obtained a list of individuals who received publicly subsidized health insurance from the Executive
Office of Health and Human Resources, which administers MassHealth, and the Commonwealth Health
Insurance Connector Authority, which provides access
to subsidized health insurance plans from private
carriers. See G. L. c. 149, § 189A (a); 430 Code Mass.
Regs. §§ 21.02, 21.03 (2018). Information about individuals who receive publicly subsidized health
insurance is protected by Federal and State law.3
Accordingly, DUA was required by law to keep such
information confidential, and it enacted EMAC Supplement regulations to do so. See 430 Code Mass. Regs.
§ 21.10 (2018).

3

See 42 U.S.C. § 1396a(a)(7)(A)(i) (requiring State medical
assistance plan to provide “safeguards which restrict the use or
disclosure of information concerning applicants and recipients to
purposes directly connected with . . . the administration of the
plan”); G. L. c. 118E, § 49 (“The use or disclosure of information
concerning applicants and recipients shall be limited to purposes
directly connected with the administration of the medical
assistance programs . . . and the names of applicants and
recipients shall not be published”).

App. 5
The regulations provide that DUA must protect
the confidentiality of the information about the
individuals with publicly subsidized health insurance,
including the names and Social Security numbers of
those individuals, and that Massachusetts employers
could receive this information only for the purpose
“of reviewing and/or appealing” their liability under
the EMAC Supplement. 430 Code Mass. Regs.
§ 21.10(2)(b). In order to receive the list of employees,
employers were required to agree to maintain the
confidentiality of that information. Id.
On April 11, 2018, DUA sent notice to Emerald
that its EMAC Supplement liability for the first
quarter of 2018 was $6,117.13 for twenty-eight employees. The notice explained how the liability amount
was calculated, and informed Emerald of its right to
request a hearing to appeal the determination within
ten days of receipt of the notice. Pursuant to the
regulations regarding confidentiality, the notice did
not include the list of the relevant employees, but
notified Emerald that it could obtain the list of the
employees’ names “by logging on to” the DUA website.
When Emerald accessed its account on the DUA
website, it was prompted to sign a privacy certification
(certification) before it could access the list of employees. In accordance with the regulations, the
certification stated, inter alia, (1) that the employer
was requesting the information for the purpose of
“review[ing] and/or appeal[ing] its” liability under the
EMAC Supplement, (2) that the employer would
maintain the confidentiality of the information and

App. 6
would not disclose the “information except as necessary to review and/or appeal the amount of ” its
liability, and (3) that the employer would not use or
disclose the “information to disparage or retaliate
against any employee or other individual to whom it
pertains.”
Emerald refused to sign the certification and agree
to the conditions enumerated, and was thus not
provided with the list of employees. Emerald filed an
appeal with DUA, arguing that the EMAC Supplement
was unconstitutional because it failed to provide an
employer with the names of the employees, and would
not do so unless the employer agreed to maintain the
confidentiality of the employees’ names and Social
Security numbers. DUA dismissed the appeal because
it “fail[ed] to cite cognizable ground for a hearing”
under G. L. c. 149, § 189A. Emerald sought judicial
review in the Superior Court, arguing that the EMAC
Supplement violated its rights to due process and free
speech and was preempted by Federal law. DUA and
Emerald filed cross motions for judgment on the
pleadings. Following a hearing, a judge of the Superior
Court denied Emerald’s motion and granted DUA’s
motion for judgment on the pleadings.
Discussion. 1. Due process claim. Emerald argues that DUA’s failure to provide it with an unconditioned right to the names of its employees who
received publicly subsidized health insurance, while
requiring Emerald to pay a contribution for those
employees, violated due process. We disagree.

App. 7
“The fundamental requirement of due process is
notice and the opportunity to be heard ‘at a meaningful
time and in a meaningful manner.’ ” Gillespie v. Northampton, 460 Mass. 148, 156 (2011), quoting Matter of
Angela, 445 Mass. 55, 62 (2005). “[D]ue process is
flexible and calls for such procedural protections as the
particular situation demands.” Mathews v. Eldridge,
424 U.S. 319, 334 (1976), quoting Morrissey v. Brewer,
408 U.S. 471, 481 (1972).
The requisite notice need only “be of such nature
as reasonably to convey the required information.”
Mullane v. Central Hanover Bank & Trust Co., 339 U.S.
306, 314 (1950). Here, the notice provided to Emerald
by DUA informed it of the amount of its EMAC
Supplement liability, the general reasoning for the
EMAC Supplement, the number of employees that the
liability determination was based on, and the manner
in which Emerald could obtain the names of those
employees. It also notified Emerald that it had the
right to request a hearing within ten days to appeal
the liability determination and the manner in which to
do so, and that the determination would be final if
Emerald did not request the hearing. The letter
further provided that a request for a hearing must
raise grounds cognizable under G. L. c. 149, § 189A,
and included examples of such grounds.4 This notice
4

Some examples of grounds cognizable under G. L. c. 149,
§ 189A, include (1) that the employer did not have six or more
employees, (2) that the employer’s employees were independent
contractors, (3) that the employer’s reported employees’ wages
were not for unemployment insurance purposes, and (4) that the

App. 8
was sufficient to furnish Emerald with the necessary
information and afford it the “opportunity to present
[its] objections.” Mullane, supra.
Emerald did request a hearing to present its
objections, and was informed that it had the right to
testify, be represented by counsel, introduce evidence,
and present witnesses at the hearing. When Emerald’s
request for a hearing was dismissed because it failed
to cite any of the cognizable grounds, Emerald had the
opportunity to and did seek judicial review. These
procedures were more than sufficient to provide
Emerald with notice of its EMAC Supplement liability,
the basis for that liability, and a meaningful opportunity to be heard to challenge that liability.
Emerald nevertheless argues that the procedure
set out in the EMAC Supplement and followed by DUA
is violative of due process because the government may
not impose conditions or limitations on the right to a
meaningful opportunity to be heard, and by requiring
Emerald to sign the privacy certification before providing access to the list of employees, DUA did just
that. The claim is without merit. This assertion does
not accurately characterize the procedure followed by
DUA, nor do we find support for this proposition in the
law.
To begin with, Emerald was not required to sign
the certification and access the list of names prior to
receiving a hearing. DUA merely permits employers to
employees had “not been on qualifying health care for a
continuous period of [fifty-six] days.”

App. 9
gain access to this information, if they so choose, as
long as the employers agree to protect its confidentiality. Thus, the conditions contained in the privacy
certification are not conditions requisite to Emerald’s
opportunity to be heard, but rather are conditions on
Emerald’s ability to access additional information that
may be useful to it at a hearing. In any event, Emerald
was provided full opportunity to obtain information it
might need to participate fully and meaningfully in a
hearing, and the conditions imposed by DUA on
Emerald’s access to that information do not derogate
in any way from Emerald’s ability to use the
information in formulating its prosecution of its rights
at the hearing. Contrary to Emerald’s contentions, due
process does not mandate DUA to unconditionally turn
over any and all information that would be helpful to
Emerald at a hearing. See LaPointe v. License Bd. of
Worcester, 389 Mass. 454, 458 (1983).
Further, due process is “not a technical conception
with a fixed content” as Emerald seems to suggest.
Commonwealth v. Torres, 441 Mass. 499, 502 (2004),
quoting Cafeteria & Restaurant Workers Union, Local
473 v. McElroy, 367 U.S. 886, 895 (1961). The mandates
of due process vary with context, see Torres, supra, and
due regard must be afforded to the “practicalities and
peculiarities” of a particular case, Mullane, 339 U.S. at
314. We are satisfied that, in the context of this case,
the fundamental requirements of due process were
met, despite the conditions imposed by DUA on the

App. 10
release of the information concerning the employees
who received publicly subsidized health insurance.5
2. Free speech claim. Emerald further argues
that conditioning its right to obtain the list of
employees on Emerald’s agreement not to disclose this
information, for any purpose other than reviewing or
appealing its EMAC Supplement liability, is a violation
of the First Amendment to the United States Constitution. It argues that the First Amendment provides
the right to speak freely about the identity of the
employees for whom it has been assessed a fee.
However, the freedom to speak “does not comprehend
the right to speak on any subject at any time.” Seattle
5

Emerald also suggests that Speiser v. Randall, 357 U.S. 513
(1958), supports its position that the procedure followed by DUA
violated due process. We are not convinced. In Speiser, the United
States Supreme Court found that a State tax program violated
due process because it placed the burden on taxpayers to show
that they qualified for a specific tax exemption, and as part of that
burden, the taxpayers had to show that they did not advocate for
the overthrow of the government. See id. at 516517, 528-529. The
Court found that, in such a case, due process mandates the State
to bear the burden of justifying the suppression of speech. Id. at
528-529. Here, we have quite a different scenario. The EMAC
Supplement does not place any burden on Emerald, or other
Massachusetts employers, to show that they will suppress their
speech as a requirement to receiving notice of its EMAC
Supplement liability or a hearing to challenge that liability. It
further does not require Emerald to show that it will not advocate
or protest against the EMAC Supplement; DUA merely requires
Emerald to agree not to disclose its employees’ names and Social
Security numbers, and the fact that they receive publicly
subsidized health insurance, as a prerequisite to receiving this
private information. The concerns present in Speiser are not
present in this case.

App. 11
Times Co. v. Rhinehart, 467 U.S. 20, 31 (1984), quoting
American Communications Ass’n v. Douds, 339 U.S.
382, 394-395 (1950).
The names and Social Security numbers of those
who receive publicly subsidized health insurance is
private government information held by DUA and is
not public record. See G. L. c. 149, § 189A (e). The First
Amendment does not provide a general “right of access
to government information or sources of information
within the government’s control,” Houchins v. KQED,
Inc., 438 U.S. 1, 15 (1978) (plurality opinion), and thus
Emerald had no First Amendment right to access this
information.6
While the government may not impose restrictions
on the access to and dissemination of information in
“private hands,” Sorrell v. IMS Health Inc., 564 U.S.
552, 568 (2011), “[t]his is not a case in which the
government is prohibiting a speaker from conveying
information that the speaker already possesses.” Los
6

While the United States Supreme Court has recognized
that the First Amendment provides a qualified right of access to
certain criminal judicial proceedings, see Press-Enterprise Co. v.
Superior Court of Cal., County of Riverside, 478 U.S. 1, 10 (1986);
Globe Newspaper Co. v. Superior Court of Norfolk County, 457
U.S. 596, 602 (1982); Richmond Newspapers, Inc. v. Virginia, 448
U.S. 555, 580 (1980), and the lower courts have extended this
right to various records relating to such criminal proceedings, see
Globe Newspaper Co. v. Pokaski, 868 F.2d 497, 505 (1st Cir.
1989); Globe Newspaper Co. v. Fenton, 819 F. Supp. 89, 91 (D.
Mass. 1993), this right has not been extended to other types of
documents. See In re Boston Herald, Inc., 321 F.3d 174, 183, 188189 (1st Cir. 2003) (citing cases rejecting First Amendment right
of access to other government documents).

App. 12
Angeles Police Dep’t v. United Reporting Publ. Corp.,
528 U.S. 32, 40 (1999) (United Reporting). Rather, this
case, like United Reporting, concerns the restriction of
access to government information based on certain
conditions.7 Here, DUA offers to provide this information to employers to assist them in reviewing, and
potentially appealing, their EMAC Supplement liability, but on the condition that the private government
information will be used for that purpose alone and not
disseminated for other reasons.
In Seattle Times Co., a similar restriction was
found not to offend the First Amendment. The restriction imposed in that case prohibited the dissemination
of information obtained through the discovery process,
unless such dissemination was for the purpose of
preparing and trying the case. See Seattle Times Co.,
467 U.S. at 32. The Court considered that the litigants
gained access to the information they wished to
disseminate only through the court-ordered discovery
process (a process created by the Legislature), that the
litigants had no First Amendment right of access to
that information, and that information gained through

7

In United Reporting, 528 U.S. at 34-35, a California statute
required persons requesting an arrestee’s address to agree not to
use the information to sell a product or service as a condition to
receiving the requested address. The Court held that the statute
could not be facially attacked under the First Amendment, but
specifically noted that the statute was “nothing more than a
governmental denial of access to information in its possession.”
Id. at 40.

App. 13
the discovery process was not traditionally accessible
to the public. Id. at 32-33.
Similarly here, the information Emerald wishes to
disseminate can be accessed only through the process
created by the EMAC Supplement (a program created
by the Legislature), Emerald has no First Amendment
right to this information, and this information is not
public record. With this backdrop, we apply the same
standard used in Seattle Times Co., and ask “whether
the ‘practice in question [furthers] an important or
substantial governmental interest unrelated to the
suppression of expression’ and whether ‘the limitation
of First Amendment freedoms [is] no greater than is
necessary or essential to the protection of the particular governmental interest involved.’ ”8 Seattle Times

8

We reject Emerald’s argument that the privacy certification
amounts to a content-based restriction, subject to strict scrutiny,
under AIDS Action Comm. of Mass., Inc. v. Massachusetts Bay
Transp. Auth., 42 F.3d 1, 8 (1st Cir. 1994) (“a regulation which
permits an idea to be expressed but disallows the use of certain
words in expressing that idea is content-based”). While the
certification requires Emerald to agree not to disclose the names
and Social Security numbers of its employees as a condition to
receiving this information, it does not restrict Emerald from using
this information to review, assess, or appeal its EMAC
Supplement liability. The certification is better characterized as
a limitation on the manner in which the names and Social
Security numbers may be utilized, and not a total restriction on
the disclosure. As such, we believe this case to be more analogous
to Seattle Times Co., which permitted the dissemination of the
information within the context of trying and preparing the case,
but limited the disclosure elsewhere. See Seattle Times Co., 467
U.S. at 27.

App. 14
Co., 467 U.S. at 32, quoting Procunier v. Martinez, 416
U.S. 396, 413 (1974).
We believe that the practice of using the privacy
certification, a procedure implemented to satisfy the
privacy mandates of G. L. c. 149, § 189A, and 430 Code
Mass. Regs. § 21.10, furthers the government’s substantial interest in maintaining the confidentiality of
private health care information of Massachusetts
citizens. Indeed, both Massachusetts and Federal law
require such safeguards to be implemented to protect
the confidentiality of this type of information. See note
3, supra. Further, the restrictions on the use of this
information are no greater than necessary to protect
the information’s confidentiality. Although Emerald
does not have free reign to disclose the names and
Social Security numbers of its employees with publicly
subsidized health insurance, it is free to use and
disclose this information to the extent necessary to
review or appeal its EMAC Supplement liability.
Emerald further may openly criticize the EMAC
Supplement as a program, it may use pseudonyms or
characteristics to describe the individual employees if
it chooses to, and if Emerald were to receive this
information from a source other than DUA, the privacy
certification would not govern its dissemination. See
Seattle Times Co., 467 U.S. at 37. In sum, we discern
no free speech violation.
3. Preemption. Lastly, Emerald argues that the
EMAC Supplement is in conflict with Federal law and

App. 15
is therefore preempted by the supremacy clause.9
Federal law provides that a “State plan for medical
assistance must . . . provide . . . safeguards which
restrict the use or disclosure of information concerning
applicants and recipients to purposes directly connected with . . . the administration of the plan.” 42
U.S.C. § 1396a(a)(7)(A)(i). Emerald contends that the
EMAC Supplement fails to accord with Federal law
because it discloses information about individuals who
receive publicly subsidized insurance to a wide range
of Massachusetts employers who have no role in the
administration of such health insurance plans. We,
however, fail to see the conflict.
The EMAC Supplement undoubtedly implements
safeguards to restrict the use and disclosure of
information about employees who receive publicly
subsidized health insurance. As discussed at length
above, no Massachusetts employer can access this type
of information without first signing the privacy certification and agreeing to maintain the information’s
confidentiality. Once an employer gains access to the
information, the employer is not authorized to use or
9

DUA asserts that this claim should be rejected because the
supremacy clause does not create a private cause of action. See
Armstrong v. Exceptional Child Ctr., Inc., 575 U.S. 320, 324-326
(2015). While we acknowledge that the supremacy clause does not
create a cause of action, Emerald did not file suit to enforce a
Federal law over a State law. Rather, it sought judicial review of
its EMAC Supplement liability determination, pursuant to G. L.
c. 30A, § 14(7), which permits a court to set aside an agency
decision that is “[i]n violation of constitutional provisions” or
“[biased upon an error of law.” We therefore address the merits of
this claim.

App. 16
disclose the information, except for the limited purpose
of reviewing or appealing the EMAC Supplement
liability determination. This permitted disclosure is
directly connected with administering the publicly
subsidized health insurance plans in Massachusetts
because, once all appellate rights have been exhausted
by an employer and the liability determination has
been finalized, the EMAC Supplement contributions
are used to fund these health insurance plans.10 See 42
U.S.C. § 1396a(a)(7)(A)(i). Accordingly, because the
EMAC Supplement does not conflict with Federal
law, but rather is consistent with 42 U.S.C.
§ 1396a(a)(7)(A)(i), Emerald’s preemption claim must
fail.
Judgment affirmed.

10

The EMAC Supplement was created to temporarily offset
the growing costs of publicly subsidized health insurance in the
Commonwealth while more permanent measures were being
considered by the Legislature. See Department of Unemployment
Assistance, Unemployment Insurance (UI) for Employers, Guide
to employer contributions to DUA, Learn about the Employer
Medical Assistance Contribution (EMAC) Supplement,
http://www.mass.gov/info-details/learn-about-the-employer-medicalassistancecontribution-supplement [https://perma.cc/B9KH-UF8J],
for a detailed explanation of the EMAC Supplement and the
context from which it was born.

App. 17
Commonwealth of Massachusetts
Appeals Court for the Commonwealth
At Boston
In the case no. 20-P-188
EMERALD HOME CARE, INC.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

vs.
DEPARTMENT OF
UNEMPLOYMENT ASSISTANCE.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Pending in the Superior
Court for the County of Middlesex
Ordered, that the following entry be made on the
docket:
Judgment affirmed.
By the Court,
/s/ Joseph F. Stanton, Clerk
Date February 2, 2021

App. 18
From:
To:
Subject:
Date:

SJCCommClerk@sjc.state.ma.us
Art Cormier
DAR-27362 - Notice: DAR denied
Friday, May 15, 2020 4:00:52 PM

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Supreme Judicial Court for the Commonwealth of
Massachusetts
RE: No. DAR-27362
EMERALD HOME CARE, INC.
vs.
DEPARTMENT OF UNEMPLOYMENT
ASSISTANCE
Middlesex Superior Court No. 1881CV01670
A.C. No. 2020-P-0188
NOTICE OF DENIAL OF APPLICATION FOR
DIRECT APPELLATE REVIEW
Please take note that on May 15, 2020, the application
for direct appellate review was denied. (Budd, J.,
recused)
Francis V. Kenneally, Clerk
Dated: May 15, 2020
To:
Arthur Raymond Cormier, Esquire
Andrew John Haile, A.A.G.

App. 19
COMMONWEALTH OF MASSACHUSETTS
MIDDLESEX, ss.

SUPERIOR COURT
CIVIL ACTION
NO. 18-1670

EMERALD HOME CARE, INC.
v.
DEPARTMENT OF
UNEMPLOYMENT ASSISTANCE
MEMORANDUM OF DECISION AND
ORDER ON CROSS-MOTIONS FOR
JUDGMENT ON THE PLEADINGS
Plaintiff Emerald Home Care, Inc. (“Emerald”)
claims that a statute and related regulation, G. L. c.
149, §189A and 430 CMR 21.10 respectively, pursuant
to which the Defendant Department of Unemployment
Assistance (“DUA”) assesses and collects what is
known as the Employer Medical Assistance Contribution Supplement, or “EMAC Supplement,” are unconstitutional. Specifically, Emerald claims the statute
and regulation violate Emerald’s rights to due process
(Counts I, II and V) and free speech (Count III and V).
Emerald also claims both are preempted by federal law
(Count IV). Emerald thus seeks, among other things, a
ruling that statute and regulation are unconstitutional

App. 20
and an order that the EMAC Supplements Emerald
has paid be returned to it.1
Presently before the Court are Emerald’s motion
for judgment on the pleadings and DUA’s cross-motion
for judgment on the pleadings.
For the reasons discussed below and in light of
the arguments made by counsel, the Court DENIES
Emerald’s motion and ALLOWS DUA’s motion.
BACKGROUND
In 2017, the Massachusetts legislature enacted a
two-year program under which fees were assessed on
employers whose employees used publicly-subsidized
health insurance, either through the state Medicaid
program, known as MassHealth, or the Massachusetts
Health Connector (the “Connector”). See G.L. c. 149,
§§189-189A. The program, known as the Employer
Medical Assistance Contribution Supplement, or
“EMAC Supplement,” program, went into effect on
January 1, 2018 and is to run through December 31,
2019. See G.L. c. 149, §189A. The program applies to
all employers in Massachusetts who employ six or
more employees, see G.L. c. 149, § 189(a), and requires
such employers to pay a quarterly fee, the EMAC Supplement, for each of their employees who received publicly-subsidized health insurance coverage for at least
1

To the extent Emerald seeks relief for any other party, that
claim is rejected. No such request was brought before DUA or was
framed in the complaint. It is thus not properly before this Court.

App. 21
56 days and who earned at least $500 during that
quarter. See 430 CMR § 21.03(2). Supplements are
calculated by multiplying the first $15,000 in wages of
each qualifying employee by five percent. See G. L. c.
149, §§189A(a), (b).
The EMAC Supplement statute assigns DUA the
task of collecting the EMAC Supplement. See G. L. c.
189A(a). DUA uses much the same infrastructure that
exists to assess and collect unemployment insurance
(“UI”) from employers. Under the UI scheme, DUA receives quarterly wage reports from employers, calculates the employer’s unemployment contribution, and
then assesses a fee which goes to the UI Trust Fund.
See G.L. c. 151A, § 14; Administrative Record (“AR”) 23 (sample wage report). The EMAC Supplement
scheme functions similarly. The process of assessing
an EMAC Supplement begins when DUA receives an
electronic file from the Executive Office of Health and
Human Services (“EOHHS”), which administers
MassHealth, or from the Connector, which provides access to subsidized health insurance plans from private
carriers. See G.L. c. 149, §189A(a). That file contains a
list of individuals who received publicly-subsidized
health insurance for at least 56 days during the previous quarter. DUA’s online system, known as UI Online,
then matches that information against the quarterly
wage filings and calculates employer liability for the
EMAC Supplement using the formula outlined above.
Data collected under the EMAC Supplement statute is not a public record, see G. L. c. §189A(e), and information about individual employees who receive

App. 22
publicly-subsidized health insurance – known as
“member information” – is confidential pursuant to
federal and state law and an Inter-agency Service
Agreement between DUA and EOHHS. Under federal
law, “[a] State plan for medical assistance must . . . provide . . . safeguards which restrict use or disclosure of
information concerning applicants and recipients to
purposes directly connected with . . . the administration of the plan[.]” 42 U.S.C. §1396a(a)(7)(A)(i);2 see
also 42 C.F.R. §431.301 (“A State plan must provide,
under a State statute that imposes legal sanctions,
safeguards meeting the requirements of this subpart
that restrict the use or disclosure of information concerning applicants and beneficiaries to purposes directly connected with the administration of the plan”);
42 C.F.R. §431.305 (“The [state] agency must have criteria that govern the types of information about applicants and beneficiaries that are safeguarded . . . This
information must include at least . . . [n]ames and addresses [and] . . . Social Security Numbers”); 42 C.F.R.
§431.304 (a), (b) (requiring a state agency to “publicize
provisions governing the confidential nature of information about applicants and beneficiaries, including
the legal sanctions imposed for improper disclosure
2

Those purposes are defined in federal regulations as:
(a) Establishing eligibility;
(b) Determining the amount of medical assistance;
(c) Providing services for beneficiaries; and
(d) Conducting or assisting an investigation, prosecution, or civil or criminal proceeding related to the administration of the plan.
42 C.F.R. § 431.302.

App. 23
and use” and “provide copies of these provisions to applicants and beneficiaries and to other persons and
agencies to whom information is disclosed”). Release of
such information must also be tightly controlled under
federal requirements. See 42 C.F.R. §431.306(a), (c), (e)
(requiring state agencies to establish criteria specifying the conditions for release and use of information
about applicants and beneficiaries, prohibiting the
agency from publishing names of applicants or beneficiaries, and establishing policies that “must apply
to all requests for information from outside sources,
including governmental bodies, the courts, or law enforcement officials”). State law imposes similar restrictions. See G.L. c. 118E §49 (“The use or disclosure
of information concerning [MassHealth] applicants
and recipients shall be limited to purposes directly
connected with the administration of the medical assistance programs established under this chapter and
the names of applicants and recipients shall not be
published”). In addition, the Massachusetts Fair Information Practices Act (FIPA) restricts the unauthorized
disclosure of most personal information, including protected health information. See G.L. c. 66A, §2 (requiring agencies that “maintain[ ] personal data” to
prohibit “any other agency or individual . . . [from]
hav[ing] access to personal data unless such access is
authorized by statute or regulations”).
DUA enacted its own EMAC Supplement regulation. See 430 CMR §21.00, et. seq. That regulation
permits DUA to obtain member information from

App. 24
MassHealth and the Connector, but requires DUA to
maintain its confidentiality:
(1) Disclosure of Member Information to Administer the EMAC Supplement. The MassHealth
Agency and the Connector shall provide DUA
with such information as DUA determines
necessary to determine liability for the EMAC
Supplement and otherwise administer M.G.L.
c. 149, §189A including, without limitation,
information pertaining to MassHealth and
ConnectorCare beneficiaries (Member Information), at such times and in such manner as
agreed by the MassHealth Agency, the Connector and DUA. The Member Information
determined necessary by DUA for such purposes and the related terms and conditions
upon which Member Information provided to
DUA shall be documented in an Interdepartmental Service Agreement among DUA, the
MassHealth Agency and the Connector (ISA).
(2) Confidentiality.
(a) DUA shall protect the confidentiality of
Member Information provided by the
MassHealth Agency and the Connector
pursuant to 430 CMR 21.10(1), in accordance with its obligations under applicable
privacy and security laws and regulations
including, without limitation, M.G.L. c.
66A and M.G.L. c. 118E, §49, and any
additional terms and conditions as the
MassHealth Agency and the Connector
may reasonably require to comply with

App. 25
their respective legal obligations, as set
forth in the IS
(b) DUA may provide an employer, that it
determines is liable for the EMAC Supplement under M.G.L. c. 149, §189A, with
access to Member Information for purposes of reviewing and/or appealing such
liability. Access shall be provided in accordance with procedures established by
DUA. Any employer that receives Member Information shall be required to
maintain the confidentiality, of such Information in accordance with M.G.L. c.
118, §49, and any other legal obligation to
which the employer is subject, and shall
limit its use and disclosure of such information as necessary to review and/or appeal the amount of the employer’s
liability.
(c) Without limiting the generality of the
foregoing, no employer shall use or disclose Member Information to disparage or
retaliate against any employee or other
individual to whom it pertains. Prior to
the receipt of Member Information, employers shall be required to sign a written
acknowledgment of their obligations to
maintain the confidentiality of such Information, in such form and pursuant to
such procedures established by DUA.
430 CMR 21.10.

App. 26
To ensure compliance with the law and its own
regulation, DUA requires employers to agree not to use
or disclose their employees’ member information except as necessary to review and/or appeal the EMAC
Supplement through a certification (“the Certification”). The Certification provides:
The undersigned hereby certifies to being (1)
an authorized representative of the Employer;
and (2) duly authorized to execute this EMAC
Supplement Certification on behalf of the Employer. On behalf of the Employer, the undersigned further agrees:
1. The Employer has requested information regarding its Qualifying
Employees from DUA (“Qualifying
Employee Information”) to review
and/or appeal its assessed EMAC
Supplement liability.
2. Qualifying
Employee
Information is confidential and, consistent
with M.G.L. 118 §49 and [430 CMR
21.10], the Employer and its authorized representative is required to
maintain the confidentiality of any
Qualifying Employee Information received from DUA (including any copies) derivatives or extracts of such
Information), in accordance with
M.G.L. 118 §49 and any other legal
obligation to which the Employer is
subject, and shall not use or disclose
such Information except as necessary
to review and/or appeal the amount

App. 27
of the Employer’s EMAC Supplement
liability. These confidentiality obligations also bind any representative of
the Employer.
3. The Employer and any authorized representative shall limit access
to Qualifying Employee Information
to those employees, contractors and
agents who reasonably need such Information to review or appeal the
Employer’s assessed EMAC Supplement liability.
4. The Employer and any authorized representative shall require any
contractor or agent receiving Qualifying Employee Information to agree
in writing to the same or more stringent limitations on the use and disclosure of Qualifying Employee
Information.
Once the employer indicates its agreement to the Certification, it may access the list of it employees who received publicly-subsidized insurance along with the
last four digits of their social security numbers. See
AR, 22-23.
If the employer wishes to challenge an issue that
is cognizable under the EMAC Supplement statute,
G.L. c. 149, §189A, it has ten days from the receipt of
the EMAC Supplement determination to file an appeal
with DUA, which leads to a hearing before a DUA hearing officer. See G.L. c. 149, §189A(c). A party aggrieved

App. 28
by the hearing officer’s decision may appeal to Superior
Court. See G.L. c. 149, §189A(c).
Emerald is a home health care company based in
Lexington. Through a notice dated April 11, 2018 and
entitled “Employer Medical Assistance Contribution
(EMAC) Supplement Determination,” DUA informed
Emerald that DUA “has determined that for quarter 1
and year 2018 you are liable under G.L. c. 149, §189A
for the EMAC Supplement in the amount of $6,117.13
for 28 employees.” The notice explained the general rationale for the EMAC Supplement. DUA also informed
Emerald that “[t]his determination will become final
unless you request a hearing within ten days from the
date on which you received the determination.” AR 6.
Emerald requested information about its employees concerning whom the EMAC Supplement was determined, but refused to sign a Certification. Because
that was the case, DUA did not provide any information identifying the 28 employees or the wages attributable to each of them pursuant to 430 CMR
21.10(2)(c).
On April 20, 2018, Emerald filed an appeal with
DUA stating that “the EMAC Supplement is unconstitutional” in that it violated due process clause because
it imposed “burdens and restrictions on taxpayers who
want to find out information concerning how they are
being taxed,” and violated Emerald’s “free speech
rights.” AR 8.
On May 9, 2018, DUA issued a Notice of Dismissal,
informing Emerald that its appeal was dismissed

App. 29
because Emerald “failed to cite cognizable grounds for
a hearing under G.L. c. 149, §189A” and did not raise a
“cognizable issue.” AR 24.
Plaintiff commenced this action for judicial review
of the DUA’s actions on June 8, 2018 under G.L. c. 149,
§189A, and 30A, § 14(7), bringing claims for violations
of due process and free speech rights as well as claiming preemption by federal law.3
DISCUSSION
The Court may set aside a state agency’s decision
only on the grounds enumerated in G.L. c. 30A, §14.
See Howard Johnson Co. v. Alcoholic Beverages Control Comm’n, 24 Mass. App. Ct. 487, 490 (1987). The
Court thus reviews the decision to determine whether
it was not supported by substantial evidence, was arbitrary or capricious, or was based on an error of law.
G.L. c. 30A, § 14(7); see also, e.g., The Local Citizen
Group v. New England Wind, LLC, 457 Mass. 222, 228
(2010). A moving party bears a heavy burden of establishing that an agency’s decision is invalid. See
Merisme v. Board of Appeals on Motor Vehicle Policies
and Bonds, 27 Mass. App. Ct. 470, 474 (1989); Mass.
Ass’n of Minority Law Enforcement Officers v. Abban,
434 Mass. 256, 263-64 (2001).
3

During the pendency of this suit, the DUA has continued to
assess Emerald with EMAC Supplements on a quarterly basis,
and Plaintiff has continued to pay those assessments. For the full
calendar year of 2018, Plaintiff was assessed and paid $22,013.69
in EMAC Supplements.

App. 30
Emerald’s concedes the legal reality – that the restrictions DUA places on member information are required by federal and state law. As a result, it is not
disputed that DUA’s refusal to provide Emerald access
to member information without the Certification is in
compliance with relevant law, not in conflict with it,
and that DUA would be in violation of federal and state
law if it released member information without constraint. In order to prevail, then, Emerald must show
that DUA’s insistence on the Certification to provide
Emerald with the member information it claims it
needs violates Emerald’s due process or First Amendment rights or is preempted by federal law. It has failed
to support any of these claims.
A. Due Process Claim
Emerald does not claim that the notice it received
is itself a violation of due process. It advised Emerald
of the EMAC Supplement calculation ($6,117.13), the
number of employees on which it was based (28), and
the general reasoning behind it, and provided Emerald
with a ten day period within which to request a hearing. Instead, Emerald argues that the Certification is
unconstitutional because it imposes improper “burdens and restrictions on taxpayers who want to find
out information concerning how they are being taxed.”
Emerald baldly asserts in its memorandum before this
Court that “being provided adequate information so
that any hearing is meaningful is a right, and thus being a right, that right is not conditional or subject to
limitations imposed by the government. Due process is

App. 31
due. Period.” This claim is overstated and thus erroneous.
The law does not support Emerald’s absolutist position, and Emerald concedes it can find no case supporting its view. The closest Emerald could come is
Speiser v. Randall, 357 U.S. 513 (1958), which is not
helpful to it. In Speiser, applicants for a tax exemption
were required to swear an oath not to overthrow the
U.S. government, which the Supreme Court held infringed on their First Amendment rights. But that case
concerned the “discriminatory denial of a tax exemption for engaging in speech.” Id. at 518. Emerald was
not denied access to member information as a penalty
for its speech; indeed, as noted below, its speech, whatever its content, was irrelevant to whether it could
get access to confidential member information held
by the government without signing the Certification.
Cf. Sorrell v. IMS Health Inc., 564 U.S. 552, 563-64
(2011) (state law improperly imposed content-based
restrictions on dissemination of information because
access turned on the would-be purchaser’s intended
use of the data).
Conditioning Emerald’s access to member information by requiring it to comply with confidentiality
restrictions does not violate Emerald’s due process
rights. “Due process requires, at minimum, an opportunity to be heard ‘at a meaningful time and in a meaningful manner.’ ” Brantley v. Hampden Div. of Prob. &
Family Court Dep’t, 457 Mass. 172, 187 (2010) (citations omitted). Due process is a fact-specific and flexible concept that “calls for such procedural protections

App. 32
as the particular situation demands.” Commonwealth
v. Torres, 441 Mass. 499, 502 (2004), quoting Mathews
v. Eldridge, 424 U.S. 319, 334 (1976) and Morrissey v.
Brewer, 408 U.S. 471, 481 (1972). Reasonable limitations on due process rights are appropriate, as they are
with other important constitutional rights. Even First
Amendment rights are subject to reasonable time,
place and manner restrictions. See, e.g., Commonwealth v. Bohmer, 374 Mass. 368, 374 (1978) (“The free
speech clause of the First Amendment protects expressive speech or conduct from governmental regulation.
This protection is not however, absolute, since ‘reasonable ‘time, place and manner’ regulations may be necessary to further significant governmental interests,
and are permitted’ ”).
In this case, Emerald can obtain full access to the
data it claims it needs but to do so, it must respect the
confidentiality that extends to the records it seeks,
which are based on well-established privacy rights
held by the members whose data is at issue. These restrictions are more than reasonable. Emerald’s due
process rights have thus not been unconstitutionally
infringed by DUA or the regime governing the confidentiality of member information.
B. Free Speech Claim
Emerald argues that violates its free speech rights
under the federal and state constitutions by limiting
its ability to discuss, complain about, or advocate about
EMAC Supplements using the confidential member

App. 33
information. For several reasons, this claim is also
meritless.
First, Emerald’s argument that the restrictions
would prevent it from making use of member information for purposes other than those sanctioned under
the statute and regulations – e.g., to make legislative
appeals to change the law – are not properly before this
Court. This dispute concerns Emerald’s access to this
data to contest DUA’s determination; Emerald did not
seek this data under any other mechanism or for any
other purpose. DUA’s determination challenged here is
solely based on the statutes under which Emerald
sought access to member information.
Second, Emerald’s claim that the 430 CMR
21.10(2)(c) restricts Emerald’s use of member information it has received from other sources is also in
error. That section only concerns member information,
which is defined as information “[t]he MassHealth
Agency and the Connector shall provide DUA . . . as
DUA determines necessary to determine liability for
the EMAC Supplement and otherwise administer
M.G.L. c. 149, §189A including, without limitation, information pertaining to MassHealth and ConnectorCare beneficiaries.” It does not extend to information
obtained by Emerald from other sources. While such
information may be protected from disclosure under
other authorities, it is not necessarily subject to these.
Third, Emerald’s claim that the Certification imposes content-based restriction on its speech is mistaken, as noted above. “Government regulation of

App. 34
speech is content based if a law applies to particular
speech because of the topic discussed or the idea or
message expressed. . . . ‘content based’ [means] . . . regulation of speech [that] . . . draws distinctions based on
the message a speaker conveys . . . [such as] defining
regulated speech by particular subject matter, and others are more subtle, defining regulated speech by its
function or purpose. Both are distinctions drawn based
on the message a speaker conveys.” Reed v. Town of
Gilbert, Ariz., 135 S. Ct. 2218, 2227 (2015). The Certification imposes no content-based restriction on Emerald’s speech – it does not restrict Emerald’s speech
based on what it wants to say about the EMAC Supplements, it simply limits how Emerald says it by prohibiting disclosure of member information regardless
of the substance of Emerald’s message.
Fourth, reasonable limits on First Amendment
rights are proper generally, and are so here. As noted
above, reasonable time, place and manner restrictions
apply to First Amendment speech, see, e.g., Bohmer,
374 Mass. at 374, and the government has the authority and the obligation to impose reasonable conditions
on access and use of private information it possesses.
See, e.g., Houchins v. KQED, Inc., 438 U.S. 1, 9 (1978)
(“The public importance of conditions in penal facilities
and the media’s role of providing information afford no
basis for reading into the Constitution a right of the
public or the media to enter these institutions, with
camera equipment, and take moving and still pictures
of inmates for broadcast purposes. This Court has
never intimated a First Amendment guarantee of a

App. 35
right of access to all sources of information within government control”).4
The privacy interests of the members whose information is at risk in this case are substantial. In light
of them, the restrictions imposed here on Emerald’s
use of such information are reasonable. Were Emerald’s view correct, it could obtain member’s social security numbers, income and health status and post that
information on the internet or otherwise expose it for
public inspection. Nothing under the First Amendment
– or the Due Process Clause, for that matter – gives
Emerald the right to sacrifice its employees’ privacy in
this manner.

4

See also Los Angeles Police Dep’t v. United Reporting Pub.
Corp., 528 U.S. 32, 40-41 (1999) (facial challenge to state law conditioning) public access to arrestees’ addresses—that the person
requesting an address declare that the request is being made for
one of five prescribed purposes, and that the requester also declare that the address will not be used directly or indirectly to sell
a product or service – failed; “[t]his is not a case in which the government is prohibiting a speaker from conveying information that
the speaker already possesses. The California statute in question
merely requires that if respondent wishes to obtain the addresses
of arrestees it must qualify under the statute to do so. Respondent
did not attempt to qualify and was therefore denied access to the
addresses. For purposes of assessing the propriety of a facial invalidation, what we have before us is nothing more than a governmental denial of access to information in its possession.
California could decide not to give out arrestee information at all
without violating the First Amendment”).

App. 36
C. Federal Preemption Claim
Emerald concedes that federal law requires a plan
like MassHealth to provide ‘safeguards which restrict
the use of disclosure of information concerning applicants and recipients to purposes directly connected
with the administration of the plan,” 42 U.S.C.
§1396a(a)(7)(A)(i), but claims that DUA’s regulation,
430 CMR 21.10, violates this requirement because it
permits disclosure of member information “to a wide
range of employers who have no role in the administration of MassHealth.” This argument is erroneous. The
Supremacy Clause does not provide Emerald with a
cause of action. See Armstrong v. Exceptional Child
Ctr., Inc., 135 S. Ct. 1378, 1383 (2015) (“the Supremacy
Clause is not the ‘source of any federal rights,’ . . . and
certainly does not create a cause of action”). Even leaving that aside, the regulation permits disclosures of
member information pursuant to the Certification to
employers for purposes of “determin[ing] liability for
the EMAC Supplement and otherwise administer
M.G.L. c. 149, §189A.” which are purposes directly connected with administering MassHealth.

App. 37
ORDER
For the foregoing reasons, Emerald’s motion for
judgment on the pleadings is DENIED and DUA’s motion for judgment on the pleadings is ALLOWED.
SO ORDERED.
/s/ Michael D. Ricciuti
MICHAEL D. RICCIUTI
Associate Justice of the
Superior Court
DATED: August 29, 2019

App. 38
JUDGMENT

Trial Court
of Massachusetts [SEAL]
The Superior Court

DOCKET NUMBER

Michael A. Sullivan,
Clerk of Court

1881CV01670
CASE NAME

Middlesex County
COURT NAME

& ADDRESS

Emerald Home Care, Inc. Middlesex County Superior
vs.
Court – Woburn
Department of
200 Trade Center
Unemployment Assistance Woburn, MA 01801
This action came before the Court, Hon. Michael
D Ricciuti, presiding, and upon consideration thereof,
It is ORDERED and ADJUDGED:
that Emerald’s motion for judgment on the pleadings
is DENIED and DUA’s motion for judgment on the
pleadings is ALLOWED. SO ORDERED.
DATE JUDGMENT ENTEREDCLERK OF COURTS/ ASST. CLERK

08/29/2019

X /s/ [Illegible]

App. 39
THE COMMONWEALTH OF MASSACHUSETTS

[SEAL]

EXECUTIVE OFFICE OF LABOR AND
WORKFORCE DEVELOPMENT
DEPARTMENT OF UNEMPLOYMENT ASSISTANCE

[Stamp]
139755467
Cormier, Arthur
2ND FLOOR
5 MILITIA DRIVE
Lexington, MA 02421

EMAC Supplement
Hearings Department
Charles F. Hurley Building
19 Staniford Street
2nd Floor
Boston, MA 02114
Ph: (617) 626-5975
July 17, 2018

NOTICE OF DISMISSAL FOR
FAILURE TO CITE COGNIZABLE
GROUND FOR A HEARING
[Stamp]

EMPLOYER [APPELLANT]:
HOME INSTEAD SENIOR CARE
5 MILITIA DRIVE
2nd Floor
LEXINGTON, MA 02421
EAN #: xxxxxxx

Issue ID#: 0026 1301 40-02
The party appealing the Director’s determination
failed to cite cognizable grounds for a hearing under
G.L. c. 149, § I 89A.
The request for hearing form you submitted indicates:
“any hearing will be limited to the issues cognizable
under the EMAC Supplement statute, G.L. c. 149,

App. 40
§ 189A raised in this request.” Your request did not
raise a cognizable issue. Therefore, your appeal is dismissed.
This dismissal becomes final unless you file an appeal
in superior court within thirty calendar days of receipt
of this dismissal notice. Appeals to superior court must
be made in accordance with M.G.L. c. 30A, § 14.
If you have concerns regarding your employee(s) eligibility for subsidized coverage, please complete the
EMAC Employee Information Form which can be
found on www.mass.gov/EMACAPPEALS. If the information provided results in a determination that an
employee was enrolled in qualifying employer sponsored insurance or was not eligible for subsidized benefits a credit will be issued to your account.
To avoid interest accrual, please submit payment in
full.

App. 41
[SEAL] THE COMMONWEALTH OF MASSACHUSETTS
EXECUTIVE OFFICE OF LABOR
AND WORKFORCE DEVELOPMENT
DEPARTMENT OF
UNEMPLOYMENT ASSISTANCE
[STAMP]
134367003
Charles D. Baker
GOVERNOR

Rosalin Acosta
SECRETARY

Karyn E. Polito
LT. GOVERNOR

Richard A. Jeffers
DIRECTOR

PayPLUS LLC
Attn: Jennifer Russell
10830 Old Mill Road
Ste 102
Omaha, NE 68154
EAN: xxxxxxx
April 11, 2018
Employer Medical Assistance
Contribution (EMAC) Supplement Determination
The Department of Unemployment Assistance EMAC
Supplement unit has matched wage records against
records maintained by the Department of Health and
Human Services, and has determined that for quarter
1 and year 2018 you are liable under G.L. c. 149, § 189A
for the EMAC Supplement in the amount of $6,117.13
for 28 employees.

App. 42
Employer liability is determined as follows:
(1) Conditions under Which the Employer Becomes Subject to the Employer Medical Assistance Contribution Supplement.
(a) Beginning with the first calendar quarter of 2018,
any employer who employs six or more employees in
any quarter is subject to the EMAC Supplement for
each such quarter.
(b) An employer’s number of employees in a calendar
quarter is calculated by dividing the sum of the employer’s three monthly employment levels for the quarter by three. An employer’s employment level for each
month of the quarter is the number of employees who
worked or received wages for any part of the pay period
that includes the 12th of the month as reportable to
DUA, pursuant to G.L. c. 151A, § 14P.
(2) Liability for Employer Medical Assistance
Contribution Supplement.
An employer subject to the EMAC Supplement for a
quarter is liable for payment of the EMAC Supplement
applicable to that quarter if one or more of its employees received health insurance coverage either through
the MassHealth agency or through ConnectorCare for
a continuous period of at least fifty-six days; provided,
however, that an employer shall not be liable for the
EMAC Supplement in a quarter for any of its employees who in that quarter have health insurance
coverage through the MassHealth agency either on
the basis of permanent and total disability as defined

App. 43
under Title XVI of the Social Security Act or under applicable state laws or as a secondary payer because
such employees are enrolled in employer-sponsored insurance. You may obtain information regarding the
identity of the individuals who have received coverage
as described above or by logging on to your UI Online
account or by calling 617-626-5975.

App. 44
THE COMMONWEALTH OF MASSACHUSETTS

[SEAL]

EXECUTIVE OFFICE OF LABOR AND
WORKFORCE DEVELOPMENT
DEPARTMENT OF UNEMPLOYMENT ASSISTANCE

[Stamp]
134366998
EMAC Supplement
EMAC Supplement
Hearings Department
Hearings Department
Charles F. Hurley Building Charles F. Hurley Building
19 Staniford Street
19 Staniford Street
2nd Floor
2nd Floor
Boston, MA 02114
Boston, MA 02114
Ph: (617) 626-5975
EAN: xxxxxxx
April 11, 2018
Request For Hearing
This determination will become final unless you request a hearing within ten days from the date on
which you received the determination. You may request a hearing though your UI Online account, or by
completing the information below and mailing this
form to:
EMAC Supplement Hearings Department
Charles F. Hurley Building
19 Staniford Street
2nd Floor
Boston, MA 02114
A hearing will relate solely to the determination for
which the hearing request is made. Any determination

App. 45
you wish to dispute must be the subject of a separate
request for a hearing.
I hereby request a hearing with regard to the EMAC
Supplement Determination for quarter 1 and year
2018.
Employer Name:
Employer Address:
Signed by:
Title:
Organization (Employer or Authorized Agent):
Date:
Any hearing will be limited to the issues cognizable under the EMAC Supplement statute, G.L. c. 149, § 189A
raised in this request.
Please circle the reason for the appeal. If the reason is
Other, please explain:
• Employer does not have 6 or more employees
• “Employee(s)” are independent contractor(s)
• Reported employee wages are not for UI purposes
• Employee(s) have not been on qualifying health
care for a continuous period of 56 days
• Other:

App. 46
THE COMMONWEALTH OF MASSACHUSETTS

[SEAL]

EXECUTIVE OFFICE OF LABOR AND
WORKFORCE DEVELOPMENT
DEPARTMENT OF UNEMPLOYMENT ASSISTANCE

[Stamp]
139755467
April 23, 2018
Appeal Submitted on:
4/20/2018
Time Submitted: 9:26 PM
Employer Information
Employer Account Number: xxxxxxxxx
Employer Name:
HOME INSTEAD SENIOR CARE
Contact Information
Name of individual
filing appeal:
Job title of individual
filing appeal:
Name of contact person
for hearing:
Job Title of contact person for hearing:
Telephone number of
contact person:

Arthur Connier
President
Arthur Connier
President
(781) 402-0060

Reason for Appeal
Please describe the reason The EMAC Supplement is unfor this appeal:
constitutional. The State can-

not impose a tax without
giving sufficient notice of the
basis of the tax, including
how the tax was calculated.

App. 47
Here the State refuses to reveal the details of how the tax
was assessed without the employer first agreeing to the
EMAC Supplement Employer
Certification. The obligations
imposed on the employer referenced in such certification
unconstitutionally impose burdens and penalties on an employer who wants to know the
basis for a tax determination,
something that constitutionally should be provided as a
matter of course. In addition,
the obligations referenced in
the EMAC Supplement Employer Certification infringe,
among other things, upon the
employer’s constitutional rights,
including the employer’s free
speech rights, by imposing confidentiality obligations on the
employer.
Hearing Details
Are you represented by an attorney or
other representative in this appeal?:
Will you present witnesses?:
Will you need an interpreter?:
What is your hearing preference?:
If your preference is telephone,
enter your hearing contact number:

Yes
No
No
Telephone
(781) 402-0060

App. 48
Additional Representation
Attorney/
Address
Representa- Firm Name
Line 1
tive’s Name

Arthur
Cormier

Emerald
Home Care,
Inc.

5 Militia
Drive

Address
Line 2

City

State

Zip

Telephone
Number

2nd Floor

Lexington

MA

02421

(781)
402-0060

I confirm that the information above is correct.

Telephone
Extension

App. 49
MIDDLESEX COUNTY

)
)
Plaintiff,
)
v.
)
)
Department of
Unemployment Assistance, )
)
Defendant. )

Middlesex County
Superior Court
Civil Action No. 18-1670

Emerald Home Care, Inc.

COMPLAINT FOR
JUDICIAL REVIEW
OF AGENCY
DECISION
(Filed June 8, 2018)

Introduction
Plaintiff brings this Complaint for Judicial Review
of Agency Decision seeking a review of the decision of
the Department of Unemployment Assistance to dismiss a timely appeal of Plaintiff. In its appeal, Plaintiff
challenged the constitutionality of the EMAC Supplement (defined below) as assessed and administered by
Defendant. Defendant dismissed the appeal, apparently determining that it was not within its jurisdiction to hear constitutional challenges. Plaintiff hereby
asks this Court, which clearly does have jurisdiction,
to determine the substance of the matter.
Parties and Jurisdiction
1. The Plaintiff, Emerald Home Care, Inc. (“Plaintiff ”), is a Massachusetts corporation having a principal place of business at 5 Militia Drive, Second Floor,
Lexington, Middlesex County, Massachusetts 02190.

App. 50
2. The Defendant is the Massachusetts Department
of Unemployment Assistance (“Defendant”).
3. This Court has jurisdiction over this matter pursuant to M.G.L. c. 30A, § 14(7) and c. 149, § 189A.
Background
4. An Act Further Regulating Employer Contributions to Health Care was passed by the Massachusetts
legislature and signed into law in August 2017 (the
“Act”). See M.G.L. c. 149, § 189A.
5. Among other things, the law temporarily changes
the existing employer medical assistance contribution
and creates a temporary supplemental contribution for
employers with employees covered under MassHealth
or subsidized coverage through the ConnectorCare
program.
6. This supplemental contribution is known as the
Employer Medical Assistance Contribution Supplement (the “EMAC Supplement”).
7. The EMAC Supplement applies to employers
with more than five employees in Massachusetts,
whose non-disabled employees obtain health insurance either from MassHealth (excluding employees
with MassHealth coverage as a secondary payer) or
subsidized coverage through the Massachusetts
ConnectorCare program. The non-disabled employee
must be enrolled in MassHealth (excluding employees
with MassHealth coverage as a secondary payer) or
subsidized coverage through the Massachusetts

App. 51
ConnectorCare program for more than eight weeks
during the quarter. The contribution paid by the employer is 5% of annual wages for each non-disabled employee, up to the annual wage cap of $15,000, for a
maximum of $750 per affected employee per year. The
contribution does not apply to employees who earn less
than $500 in wages per quarter.
8. The EMAC Supplements began accruing on January 1, 2018.
9. Defendant is charged by the Act with, among other
things, assessing the EMAC Supplements.
9. Via a document dated April 11, 2018 and entitled
“Employer Medical Assistance Contribution (EMAC)
Supplement Determination,” Defendant informed
Plaintiff that Defendant “has determined that for
quarter 1 and year 2018 you are liable under G.L. c.
149, § 189A for the EMAC Supplement in the amount
of $6,117.13 for 28 employees.” Defendant also informed Plaintiff that “[t]his determination will become
final unless you request a hearing within ten days from
the date on which you received the determination.”
10. Defendant did not provide any information identifying the 28 employees or the wages attributable to
each of them, thereby making it impossible for Plaintiff
to determine how the EMAC Supplement was calculated and whether that calculation was accurate.
11. Consistent with regulations promulgated by Defendant, see 430 CMR 21.10, Defendant refuses to
provide such information to Plaintiff about how the

App. 52
EMAC Supplement was calculated unless Plaintiff
signs the following certification (the “Certification”):
The undersigned hereby certifies to being (1) an authorized representative of the Employer; and (2)
duly authorized to execute this EMAC Supplement
Certification on behalf of the Employer. On behalf
of the Employer, the undersigned further agrees:
1. The Employer has requested information
regarding its Qualifying Employees from DUA
(“Qualifying Employee Information”) to review
and/or appeal its assessed EMAC Supplement liability.
2. Qualifying Employee Information is confidential and, consistent with M.G.L. 118 § 49
and [430 CMR 21.10], the Employer and its
authorized representative is required to
maintain the confidentiality of any Qualifying Employee Information received from DUA
(including any copies, derivatives or extracts of
such Information), in accordance with MGL
118 § 49 and any other legal obligation to
which the Employer is subject, and shall not
use or disclose such Information except as necessary to review and/or appeal the amount of
the Employer’s EMAC Supplement liability.
These confidentiality obligations also bind any
representative of the Employer.
3. Neither the Employer nor its authorized
representative shall use or disclose Qualifying
Employee Information to disparage or retaliate against any employee or other individual
to whom it pertains.

App. 53
4. The Employer and any authorized representative shall limit access to Qualifying
Employee Information to those employees, contractors and agents who reasonably need such
Information to review or appeal the Employer’s assessed EMAC Supplement liability.
5. The Employer and any authorized representative shall require any contractor or agent
receiving Qualifying Employee Information to
agree in writing to the same or more stringent
limitations on the use and disclosure of Qualifying Employee Information.
12. Plaintiff did not sign the Certification and thus
was not provided and still has not been provided any
information concerning how its EMAC Supplement
was calculated.
13. On April 20, 2018, Plaintiff filed an appeal of its
EMAC Supplement, objecting to, among other things,
the lack of due process in not providing adequate notice of how the EMAC Supplement was calculated, the
constitutional impropriety of imposing burdens and restrictions on taxpayers who want to find out information concerning how they are being taxed, and the
particular constitutional impropriety of violating taxpayers’ First Amendment rights by limiting their ability to discuss, complain about, advocate for or
otherwise engage in the political process about a tax
imposed on them.
14. Via a document dated May 9, 2018 and entitled
“Notice of Dismissal for Failure to Cite Cognizable
Ground for a Hearing,” Defendant dismissed

App. 54
Plaintiff ’s appeal without a hearing, apparently believing it did not have jurisdiction to hear constitutional objections.
Count I
15. Plaintiff realleges and incorporates herein by reference the allegations of paragraph 1 through paragraph 14 above.
16. Requiring a taxpayer, such as Plaintiff, to sign a
coerced agreement, such as the Certification, as a condition precedent to being given adequate notice of the
nature of a tax, such as the EMAC Supplement, violates both the United States Constitution and the Massachusetts Constitution, including with respect to due
process principles thereunder.
Count II
17. Plaintiff realleges and incorporates herein by reference the allegations of paragraph 1 through paragraph 16 above.
18. The regulations promulgated by Defendant, see
430 CMR 21.10, impose the burdens and restrictions
contained in the Certification on Plaintiff, regardless
of whether Plaintiff signs the Certification or not.
19. Imposing burdens and restrictions, such as those
contained in the Certification and in 430 CMR 21.10,
on taxpayers who inquire or otherwise find out why
they are being taxed violates both the United States

App. 55
Constitution and the Massachusetts Constitution, including with respect to due process principles thereunder.
Count III
20. Plaintiff realleges and incorporates herein by reference the allegations of paragraph 1 through paragraph 19 above.
21. Imposing confidentiality restrictions, such as
those contained in the Certification and in 430 CMR
21.10, on taxpayers, and where those restrictions involuntarily limit taxpayers’ ability to discuss, complain
about, advocate for or otherwise engage in the political
process concerning an imposed tax, violates both the
United States Constitution and the Massachusetts
Constitution, including with respect to free speech
principles thereunder.
Count IV
22. Plaintiff realleges and incorporates herein by reference the allegations of paragraph 1 through paragraph 21 above.
23. The EMAC Supplement conflicts with and/or undermines the Affordable Care Act and therefore is void
under the doctrine of preemption.

App. 56
Count V
24. Plaintiff realleges and incorporates herein by reference the allegations of paragraph 1 through paragraph 23 above.
25. Defendant was not authorized constitutionally or
pursuant to any statute to promulgate the burdens
and restrictions contained in the Certification and in
430 CMR 21.10, and therefore such burdens and restrictions are void.
Prayers for Relief
WHEREFORE, the Plaintiff, Emerald Home Care,
Inc., requests that this Court:
A. Hear the substance of this matter since Defendant believes it is outside of its jurisdiction
to do so;
B.

Enter a Judgement determining that the
EMAC Supplement is unconstitutional, no
amounts are due thereunder, and ordering
Defendant to promptly return to Plaintiff any
and all EMAC Supplement payments already
paid;

C.

Alternatively, enter a Judgement declaring
the burdens and restrictions contained in the
Certification and in 430 CMR 21.10 unconstitutional and void, ordering Defendant to
promptly make known to Plaintiff the identities of the employees and corresponding
wages on which it is being taxed, and

App. 57
reserving Plaintiff ’s rights to object thereto
once that information is revealed; and
D. Enter whatever additional relief the Court
deems appropriate.
Dated: June 8, 2018
EMERALD HOME CARE, INC.
By its attorney
/s/

Arthur R. Cormier
Arthur R. Cormier
5 Militia Drive, 2nd Floor
Lexington, MA 02421
781-402-0060
art.cormier@homeinstead.com
BBO# 645116

App. 58
CONSTITUTIONAL PROVISIONS
Article VI, Clause 2
This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all
Treaties made, or which shall be made, under the Authority of the United States, shall be the supreme Law
of the Land; and the Judges in every State shall be
bound thereby, any Thing in the Constitution or Laws
of any state to the Contrary notwithstanding.
Amendment I (1791)
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.
Amendment XIV (1868)
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

App. 59
42 U.S.C. §1396a. State plans for medical assistance
(a)

Contents
A State plan for medical assistance must—
*
(7)

*

*

provide—

(A) safeguards which restrict the use
or disclosure of information concerning applicants and recipients to purposes directly connected with—
(i)
*

the administration of the plan;
*

*

App. 60
Subpart F—Safeguarding Information on Applicants and Recipients
SOURCE: 44 FR 17934, Mar. 29, 1979, unless otherwise noted.
§ 431.300 Basis and purpose.
(a) Section 1902(a)(7) of the Act requires that a
State plan must provide safeguards that restrict the
use or disclosure of information concerning applicants
and recipients to purposes directly connected with the
administration of the plan. This subpart specifies State
plan requirements, the types of information to be safeguarded, the conditions for release of safeguarded information, and restrictions on the distribution of other
information.
(b) Section 1137 of the Act, which requires agencies to exchange information in order to verify the income and eligibility of applicants and recipients (see
§ 435.940ff ), requires State agencies to have adequate
safeguards to assure that—
(1) Information exchanged by the State agencies
is made available only to the extent necessary to assist
in the valid administrative needs of the program receiving the information, and information received under section 6103(1) of the Internal Revenue Code of
1954 is exchanged only with agencies authorized to receive that information under that section of the Code;
and

App. 61
(2) The information is adequately stored and
processed so that it is protected against unauthorized
disclosure for other purposes.
[51 FR 7210, Feb. 28, 1986]
§ 431.301 State plan requirements.
A State plan must provide, under a State statute
that imposes legal sanctions, safeguards meeting the
requirements of this subpart that restrict the use or
disclosure of information concerning applicants and
recipients to purposes directly connected with the administration of the plan.
§ 431.302 Purposes directly related to State
plan administration.
Purposes directly related to plan administration
include—
(a)
(b)
tance;
(c)

Establishing eligibility;
Determining the amount of medical assisProviding services for recipients; and

(d) Conducting or assisting an investigation,
prosecution, or civil or criminal proceeding related to
the administration of the plan.

App. 62
§ 431.303 State authority for safeguarding information.
The Medicaid agency must have authority to implement and enforce the provisions specified in this
subpart for safeguarding information about applicants
and recipients.
§ 431.304 Publicizing
ments.

safeguarding

require-

(a) The agency must publicize provisions governing the confidential nature of information about applicants and recipients, including the legal sanctions
imposed for improper disclosure and use.
(b) The agency must provide copies of these provisions to applicants and recipients and to other persons and agencies to whom information is disclosed.
§ 431.305 Types of information to be safeguarded.
(a) The agency must have criteria that govern
the types of information about applicants and recipients that are safeguarded.
(b)

This information must include at least—

(1)

Names and addresses;

(2)

Medical services provided;

(3) Social and economic conditions or circumstances;

App. 63
(4)

Agency evaluation of personal information;

(5) Medical data, including diagnosis and past
history of disease or disability; and
(6) Any information received for verifying income eligibility and amount of medical assistance payments (see § 435.940ff ). Income information received
from SSA or the Internal Revenue Service must be
safeguarded according to the requirements of the
agency that furnished the data.
(7) Any information received in connection with
the identification of legally liable third party resources
under § 433.138 of this chapter.
[44 FR 17934, Mar. 29, 1979, as amended at 51 FR
7210, Feb. 28, 1986; 52 FR 5975, Feb. 27, 1987]
§ 431.306 Release of information.
(a) The agency must have criteria specifying the
conditions for release and use of information about applicants and recipients.
(b) Access to information concerning applicants
or recipients must be restricted to persons or agency
representatives who are subject to standards of confidentiality that are comparable to those of the agency.
(c) The agency must not publish names of applicants or recipients.
(d) The agency must obtain permission from a
family or individual, whenever possible, before

App. 64
responding to a request for information from an outside source, unless the information is to be used to verify income, eligibility and the amount of medical
assistance payment under section 1137 of this Act and
H435.940 through 435.965 of this chapter.
If, because of an emergency situation, time does not
permit obtaining consent before release, the agency
must notify the family or individual immediately after
supplying the information.
(e) The agency’s policies must apply to all requests for information from outside sources, including
governmental bodies, the courts, or law enforcement
officials.
(f ) If a court issues a subpoena for a case record
or for any agency representative to testify concerning
an applicant or recipient, the agency must inform the
court of the applicable statutory provisions, policies,
and regulations restricting disclosure of information.
(g) Before requesting information from, or releasing information to, other agencies to verify income,
eligibility and the amount of assistance under H
435.940 through 435.965 of this chapter, the agency
must execute data exchange agreements with those
agencies, as specified in § 435.945(f ).
(h) Before requesting information from, or releasing information to, other agencies to identify legally liable third party resources under § 433.138(d) of
this chapter, the agency must execute data exchanges

App. 65
agreements, as specified in § 433.138(h)(2) of this
chapter.
[44 FR 17934, Mar. 29, 1979, as amended at 51 FR
7210, Feb. 28, 1986; 52 FR 5975, Feb. 27, 1987]
§ 431.307 Distribution of information materials.
(a) All materials distributed to applicants, recipients, or medical providers must—
(1) Directly relate to the administration of the
Medicaid program;
(2) Have no political implications except to the
extent required to implement the National Voter Registration Act of 1993 (NVRA) Pub. L. 103-931; for
States that are exempt from the requirements of
NVRA, voter registration may be a voluntary activity
so long as the provisions of section 7(a)(5) of NVRA are
observed;
(3) Contain the names only of individuals directly connected with the administration of the plan;
and
(4) Identify those individuals only in their official capacity with the State or local agency.
(b) The agency must not distribute materials
such as “holiday” greetings, general public announcements, partisan voting information and alien registration notices.

App. 66
(c) The agency may distribute materials directly
related to the health and welfare of applicants and recipients, such as announcements of free medical examinations, availability of surplus food, and consumer
protection information.
(d) Under NVRA, the agency must distribute
voter information and registration materials as specified in NVRA.
[44 FR 17934, Mar. 29, 1979, as amended at 61 FR
58143, Nov. 13, 1996]
*

*

*

App. 67
HOUSE DOCKET, NO. 4132

FILED ON: 7/17/2017

HOUSE ........................................................... No. 3822
Sections 16, 17, 60 to 67, inclusive, 93, 110, 111, 122,
146, 147 and 150 contained in the engrossed Bill making appropriations for the fiscal year 2018(see House,
No. 3800), which had been returned by His Excellency
the Governor with recommendation of amendment
(for message, see Attachment F of House, No. 3828).
July 17, 2017.
The Commonwealth of Massachusetts
-----------------------------------------------------------------------

In the One Hundred and Ninetieth General Court
(2017-2018)
-----------------------------------------------------------------------

An Act further regulating employer contributions to
health care.
Whereas, The deferred operation of this act would
tend to defeat its purpose, which is to establish forthwith certain employer healthcare contributions, therefore it is hereby declared to be an emergency law,
necessary for the immediate preservation of the public
convenience.
Be it enacted by the Senate and House of Representatives in General Court assembled, and by the authority of the same, as follows:
SECTION 1. Section 8A of chapter 23H of the
General Laws, as appearing in the 2016 Official

App. 68
Edition, is hereby amended by inserting after the word
“system”, in line 2, the following words:—, the contribution established under section 189A of chapter 149.
SECTION 2. Said section 8A of said chapter 23H
is hereby further amended by striking out the words “,
the contribution established under section 189A of
chapter 149” inserted by section 1.
SECTION 3. Section 189 of chapter 149 of the
General Laws, as appearing in the 2016 Official Edition, is hereby amended by striking out, in line 8, the
figure “.34” and inserting in place thereof the following
figure:- .51.
SECTION 4. Said section 189 of said chapter 149
is hereby further amended by striking out the figure
“.51”, inserted by section 3, and inserting in place
thereof the following figure:- .34.
SECTION 5. Said section 189 of said chapter
149, as appearing in the 2016 Official Edition, is
hereby further amended by striking out, in line 50, the
figure “.12” and inserting in place thereof the following
figure:- .18.
SECTION 6. Said section 189 of said chapter 149
is hereby further amended by striking out the figure
“.18”, inserted by section 5, and inserting in place
thereof the following figure:- .12.
SECTION 7. Said section 189 of said chapter
149, as appearing in the 2016 Official Edition, is
hereby further amended by striking out, in line 54, the

App. 69
figure “.24” and inserting in place thereof the following
figure:- .36.
SECTION 8. Said section 189 of said chapter 149
is hereby further amended by striking out the figure
“.36”, inserted by section 7, and inserting in place
thereof the following figure:- .24.
SECTION 9. Said chapter 149 is hereby further
amended by inserting after section 189 the following
section:Section 189A. (a) Each employer, subject to sections 14, 14A and 14C of chapter 151A, except those
who employ not more than 5 employees, shall pay a
contribution for each employee who receives health insurance coverage through the division of medical assistance or subsidized insurance through the
commonwealth health insurance connector authority.
The contribution shall be computed by multiplying the
wages the employer paid any such employee by 5 per
cent. The department of unemployment assistance, in
consultation with the division of medical assistance
and the commonwealth health insurance connector authority, shall promulgate regulations to implement
this subsection, which shall specify the number of days
that an individual shall be required to receive such
subsidized health care coverage to cause the assessment. The contribution shall be paid in a manner prescribed by the director of unemployment assistance.
(b) For the purposes of this section, “wages” shall
mean the “unemployment insurance taxable wage
base” as defined in paragraph (4) of subsection (a) of

App. 70
section 14 of chapter 151A; provided, however that
“wages” shall not include that part of remuneration
which, after remuneration equal to the unemployment
insurance taxable wage base with respect to employment with such employer has been paid to an individual during the calendar year, is paid to such individual
during such year. For the purposes of this paragraph,
“remuneration” shall include remuneration paid to an
individual during the calendar year with respect to
employment with a transferring employer as that term
is used in subsection (n) of section 14 of said chapter
151A.
(c) An employer notified of a liability determination under this section may request a hearing on such
determination. The request for a hearing shall be filed
not more than 10 days after the receipt of the notice of
the determination. If a hearing is requested, the employer shall have a reasonable opportunity for a fair
hearing before an impartial hearing officer designated
by the director of unemployment assistance. The hearing shall be conducted in accordance with subsection
(b) of section 39 of chapter 151A. Following the hearing, an aggrieved party may appeal the decision to superior court.
(d)(1) Except where inconsistent with this section, the terms and conditions of chapter 151 A that are
applicable to the payment and collection of contributions or payments in lieu of contributions shall apply
to the same extent to the payment of and the collection
of the contribution under this section; provided, however, that such contributions shall not be credited to

App. 71
the employer’s account or to the solvency account established under section 14, 14A or 14C of said chapter
151A.
(2) The director of unemployment assistance
may share information with the commissioner of revenue to enforce and collect the contribution under this
section. The commissioner of revenue may enforce
and collect a debt certified by the director as owed under this section in the manner as a tax due and unpaid under chapter 62C; provided, however, that the
procedures authorized in subsection (c) shall be the
sole remedies for an employer to dispute a debt so certified and remedies otherwise available under said
chapter 62C to dispute a tax assessment shall not be
available. Notwithstanding any general or special law
to the contrary, for the purposes of enforcement of this
section the commissioner of revenue may disclose to
the department of unemployment assistance any information referred to in chapter 62E or any information
relating to the commissioner’s collection activities under chapter 62C with regard to debts certified by the
director.
(e) Data collected by the department of unemployment insurance, the department of revenue, the division of medical assistance and the commonwealth
health insurance connector authority under this section shall not be a public record under clause Twentysixth of section 7 of chapter 4 or under chapter 66. The
department of unemployment insurance, the department of revenue, the division of medical assistance and

App. 72
the commonwealth health insurance connector authority may share information to implement this section.
SECTION 10. Section 189A of said chapter 149
is hereby repealed.
SECTION 11. Notwithstanding section 14 of
chapter 151A of the General Laws, for calendar year
2018 the experience rate of an employer qualifying under subsection (b) of said section 14 of said chapter
151A shall be the rate which appears in the column
designated “D” of paragraph (1) of subsection (i) of said
section 14 of said chapter 151A and for calendar year
2019 the experience rate of an employer qualifying under said subsection (b) of said section 14 of said chapter
151A shall be the rate which appears in the column
designated “E” of said paragraph (1) of said subsection
(i) of said section 14 of said chapter 151 A.
The director of unemployment assistance may,
notwithstanding any federal interest charges for necessary federal advances, pursue any necessary federal
advances to ensure the lowest reasonable federal interest for any federal loans and nothing in this section
shall contribute or allow for a reduction in benefits, including but not limited to, the amount or length of benefits, pursuant to chapter 151A.
SECTION 12. Notwithstanding any general or
special law to the contrary, the comptroller shall count
as revenue in fiscal year 2018 any increased contributions collected pursuant to sections 3, 5, 7, and 9 that
are received by the commonwealth not later than August 31, 2018.

App. 73
SECTION 13. Notwithstanding any general or
special law to the contrary, the comptroller shall count
as revenue in fiscal year 2019 any increased contributions collected pursuant to sections 3, 5, 7, and 9, that
are received by the commonwealth between September
1, 2018 and August 31, 2019.
SECTION 14. Notwithstanding the repeal of
section 189A of chapter 149 of the General Laws, the
director of unemployment assistance may collect any
outstanding contributions established pursuant to
said section 189A of said chapter 149 obligations arising prior to January 1, 2020 and any such collection
shall be conducted in accordance with the regulations
promulgated by the department of unemployment assistance pursuant to said section 189A of said chapter
149. The director of unemployment assistance may
share information with the commissioner of revenue to
enforce and collect outstanding contributions. The
commissioner of revenue may enforce and collect a
debt certified by the director as owed under this section
in the manner of a tax due and unpaid under chapter
62C of the General Laws; provided, however, that the
remedies authorized by the regulations of the department of unemployment assistance shall be the sole
remedies for an employer to dispute a debt so certified,
and remedies otherwise available under said chapter
62C to dispute a tax assessment shall not be available.
Notwithstanding any general or special law to the
contrary, for the purposes of enforcement of this section the commissioner of revenue may disclose to
the department of unemployment assistance any

App. 74
information referred to in chapter 62E of the General
Laws or any information relating to the commissioner’s collection activities under said chapter 62C
with regard to debts certified by the director.
SECTION 15. Subsections (a) and (b) of section
189A of chapter 149 of the General Laws shall take effect on January 1, 2018.
SECTION 16. Sections 2, 4, 6, Band 10 shall take
effect on December 31, 2019.
SECTION 17. Section 54 of chapter 47 of the
acts of 2017 shall take effect on September 30, 2022.
SECTION 18.
1, 2017.

This act shall take effect as of July

App. 75
Part I

ADMINISTRATION OF THE
GOVERNMENT

Title XVII

PUBLIC WELFARE

Chapter 118E DIVISION OF MEDICAL
ASSISTANCE
Section 49

USE AND DISCLOSURE OF
INFORMATION

Section 49. The use or disclosure of information concerning applicants and recipients shall be limited to
purposes directly connected with the administration of
the medical assistance programs established under
this chapter and the names of applicants and recipients shall not be published.

App. 76
430 CMR: DEPARTMENT OF
UNEMPLOYMENT ASSISTANCE
430 CMR 21.00: EMPLOYER MEDICAL ASSISTANCE CONTRIBUTION SUPPLEMENT
*
21.02:

*

*

General Definitions

Connector. The Commonwealth Health Insurance
Connector Authority, established pursuant to
M.G.L. c. 176Q, § 2.
ConnectorCare. A program of health insurance using state subsidies that is run by the Connector
and provided to individuals with household incomes of less than 300% of the Federal Poverty
Limit who meet the eligibility criteria set out at
956 CMR 12.03: Definitions.
DUA. The Department of Unemployment Assistance, established pursuant to M.G.L. c. 23, § 1.
DUA Director. The Director of the Department of
Unemployment Assistance or the Director’s designee.
DMA. The Division of Medical Assistance within
the Executive Office of Health and Human Services.
Employee. For purposes of determining liability
for the EMAC Supplement and for determining
wages under 430 CMR 21.00, has the same meaning as is provided in M.G.L. c. 151A, § 1(h).
Employer. The same meaning as is provided in
M.G.L. c. 151A, § 1(i).

App. 77
Employing Unit. The same meaning as is provided
in M.G.L. c. 151A, § 1(j).
Employment. The same meaning as is provided in
M.G.L. c. 151A, § 1(k). The classes of employment
exempt from coverage for purposes of paying the
EMAC supplement are the same as set forth in
M.G. L. c. 151A. Non-exempt service performed by
an individual shall be deemed to be employment
subject to M.G.L. c. 149, § 189A, unless and until
it is shown to the satisfaction of the DUA Director
that all of the provisions of M.G.L. c. 151A, § 2,
have been established.
EMAC Supplement. The contribution provided for
in M.G.L. c. 149, § 189A.
MassHealth Agency, or DMA. The Office of Medicaid within the Executive Office of Health and Human Services, the single state agency responsible
for the administration of programs of medical assistance and medical benefits established pursuant to M.G.L. c. 6A, § 16, and c. 118E.
Remuneration. The same meaning as in M.G.L. c.
151A, and shall include remuneration paid to an
individual during the calendar year with respect
to employment with a transferring employer.
Wages. Remuneration paid by or on behalf of an
employer to or for one of its employees up to the
amount of the Unemployment Insurance Taxable
Wage Base for each employee, as defined in M.G.L.
c. 151A, §14(a)(4). For purposes of the EMAC Supplement, wages are deemed paid at the time that
they are or should have been paid.
*

*

*

App. 78
21.06:

Appeals

(1) Administrative appeals from determinations
of liability.
(a) Whenever the DUA Director issues a determination that an employing unit is liable
for the EMAC Supplement or regarding the
amount of such liability, the employing unit
may request a hearing on such determination.
The request for a hearing shall be filed not
more than ten days after the employer’s receipt of notice of the determination. The conduct of such hearing shall be in accordance
with the procedures prescribed by M.G.L. c.
151A, § 39(b). The DUA Director will issue a
written decision affirming, modifying, or revoking the initial determination.
(b) When a notice of a determination by the
DUA Director is transmitted by means of an
electronic communication, it shall be presumed received on the date it is sent, except
that any notice transmitted after 5:00 P.M. or
on a state or federal holiday, Saturday, or Sunday, shall be presumed received on the next
business day. When notice of a determination
is sent by regular mail, it shall be presumed
received three days after it is mailed, except
that if the third day falls on a state or federal
holiday, Saturday, or Sunday, the notice shall
be presumed received on the next business
day. However the notice is transmitted, the
presumption may be rebutted by substantial
and credible evidence satisfactory to the DUA
Director that the notice actually was received
on an earlier or later date.

App. 79
(c) A request shall be deemed filed on the
postmark date if sent by regular mail and otherwise when actually received by DUA. A request received after 5:00 P.M. shall be deemed
filed on the next business day.
(2) A party aggrieved by the DUA Director’s decision, issued following the hearing described in
430 CMR 21.06(1), may appeal the decision to the
superior court for the county:
(a) where the party resides or has its principal place of business within the commonwealth;
(b)

where DUA has its principal office; or

(c)

of Suffolk.

Such an action must be commenced within 30
days of the date such decision is received by the
party.
*

*

*

21.10: Disclosure of Information to Administer
EMAC; Confidentiality
(1) Disclosure of Member Information to Administer the EMAC Supplement. The MassHealth
Agency and the Connector shall provide DUA with
such information as DUA determines necessary to
determine liability for the EMAC Supplement and
otherwise administer M.G.L. c. 149, § 189A including, without limitation, information pertaining to
MassHealth and ConnectorCare beneficiaries
(Member Information), at such times and in such
manner as agreed by the MassHealth Agency, the
Connector and DUA. The Member Information determined necessary by DUA for such purposes and

App. 80
the related terms and conditions upon which
Member Information shall be provided to DUA
shall be documented in an Interdepartmental Service Agreement among DUA, the MassHealth
Agency and the Connector (ISA).
(2)

Confidentiality.
(a) DUA shall protect the confidentiality of
Member Information provided by the
MassHealth Agency and the Connector pursuant to 430 CMR 21.10(1), in accordance with
its obligations under applicable privacy and
security laws and regulations including, without limitation, M.G.L. c. 66A and M.G.L. c.
118E, § 49, and any additional terms and conditions as the MassHealth Agency and the
Connector may reasonably require to comply
with their respective legal obligations, as set
forth in the ISA.
(b) DUA may provide an employer that it determines is liable for the EMAC Supplement
under M.G.L. c. 149, § 189A, with access to
Member Information for purposes of reviewing and/or appealing such liability. Access
shall be provided in accordance with procedures established by DUA. Any employer that
receives Member Information shall be required to maintain the confidentiality of such
Information in accordance with M.G.L. c. 118,
§ 49, and any other legal obligation to which
the employer is subject, and shall limit its use
and disclosure of such information as necessary to review and/or appeal the amount of
the employer’s liability.

App. 81
(c) Without limiting the generality of the
foregoing, no employer shall use or disclose
Member Information to disparage or retaliate
against any employee or other individual to
whom it pertains. Prior to the receipt of Member Information, employers shall be required
to sign a written acknowledgement of their
obligations to maintain the confidentiality of
such Information, in such form and pursuant
to such procedures established by DUA.
REGULATORY AUTHORITY
430 CMR 21.00: M.G.L. c. 149, § 189A.

App. 82
Employer Information
Employer Account Number: XXXXXX
Employer Name: Emerald Home Care, Inc.
Data Privacy Authorization
EMAC Supplement Employer Certification
The Department of Unemployment Assistance (“DUA”)
has determined that [Emerald Home Care, Inc./the
employer identified below] (“Employer”) is liable for
payment of the Employer Medical Assistance Contribution Supplement (“EMAC Supplement”) pursuant
to M.G.L. c. 149, § 189A and [430 CMR 21.00]. The
amount of the Employer’s liability is based on the number of its employees who received health insurance coverage through MassHealth or subsidized health care
insurance through the Commonwealth Health Insurance Connector Authority (referred to as “ConnectorCare”) during the applicable quarter in accordance
with [430 CMR 21.00] (“Qualifying Employees”).
The undersigned hereby certifies to being (1) an authorized representative of the Employer; and (2) duly
authorized to execute this EMAC Supplement Certification on behalf of the Employer. On behalf of the Employer, the undersigned further agrees:
1.

The Employer has requested information regarding its Qualifying Employees from DUA (“Qualifying Employee Information”) to review and/or
appeal its assessed EMAC Supplement liability.

App. 83
2.

Qualifying Employee Information is confidential
and, consistent with M.G.L. 118E § 49 and [430
CMR 21.10], the Employer and its authorized representative is required to maintain the confidentiality of any Qualifying Employee Information
received from DUA (including any copies, derivatives or extracts of such Information), in accordance with MGL 118E § 49 and any other legal
obligation to which the Employer is subject, and
shall not use or disclose such Information except
as necessary to review and/or appeal the amount
of the Employer’s EMAC Supplement liability.
These confidentiality obligations also bind any
representative of the Employer.

3.

Neither the Employer nor its authorized representative shall use or disclose Qualifying Employee
Information to disparage or retaliate against any
employee or other individual to whom it pertains.

4.

The Employer and any authorized representative
shall limit access to Qualifying Employee Information to those employees, contractors and agents
who reasonably need such Information to review
or appeal the Employer’s assessed EMAC Supplement liability.

5.

The Employer and any authorized representative
shall require any contractor or agent receiving
Qualifying Employee Information to agree in writing to the same or more stringent limitations on
the use and disclosure of Qualifying Employee Information.

App. 84
I have read and agree with the above: ○ Yes ○ No*
Note: If you check ‘No’ you cannot continue with this
request.

